                                               December 1, 2000



Honorable Richard K. Armey
Majority Leader
House of Representatives
Washington, D.C. 20515-6503

Dear Congressman Armey:

     This is in reply to the joint letter of October 12, 2000,
from the Chairmen of the Senate Committee on the Budget and
Committee on Governmental Affairs, the House Government Reform
Committee, House Budget Committee and you on Department of
Defense (DoD) management challenges. The joint letter requested
that we update our previous assessments of the most significant
management problems facing the DoD; identify related reports
and recommendations; comment on progress being made in resolving
significant problems; and identify programs that have had
questionable success in achieving results.

     The size and diversity of DoD operations makes it difficult
to summarize the vast array of management challenges confronting
the Department and to determine those of most significance.
There are several hundred ongoing management initiatives to
address challenges visible at the Office of the Secretary of
Defense level and many more being carried out within the
Military Departments, Defense Agencies, Joint Staff and
Combatant Commands. Similarly, the Department performs a huge
number of self-assessments, including well over 200 audit and
evaluation reports with about 1,000 recommendations annually
from this office. The General Accounting Office also reports
extensively on DoD matters. Nevertheless, there are troubling
gaps in audit coverage in many areas of the Department, which
are caused primarily by resource constraints. Therefore we
caution that the limited number of reports and recommendations
related to some management problem areas, such as Health Care
and Readiness, are not indicative of the actual scope of the
challenges in those areas. Despite the lack of comprehensive
audit coverage in certain areas, we feel confident in
identifying the following principal management challenges:

      1.   Information Technology Management

      2.   Information System Security

      3.   Other Security Concerns
                                                            2

      4.    Financial Management

      5.    Acquisition

      6.    Health Care

      7.    Supply Inventory Management

      8.    Other Infrastructure Issues

      9.    Readiness

     10.    Human Capital

     These 10 challenges are essentially the same as those we
identified last year, except that Turbulence from Change has
been broadened to Human Capital. The detailed information
that you requested on each area and on poorly performing
programs is enclosed. If there are questions, please contact
me or Mr. John R. Crane, Director, Office of Congressional
Liaison, at (703) 604-8324.

                                   Sincerely,


                                   (signed)


                                  Donald Mancuso
                             Acting Inspector General

Enclosure
                    Detailed Response to Congressional
                       Request of October 12, 2000,
                       on DoD Management Challenges


            Topic                                   Enclosure


PRINCIPAL MANAGEMENT CHALLENGES

Information Technology Management                         1

Information System Security                               2

Other Security Concerns                                   3

Financial Management                                      4

Acquisition                                               5

Health Care                                               6

Supply Inventory Management                               7

Other Infrastructure Issues                               8

Readiness                                                 9

Human Capital                                            10


OTHER INFORMATION

Programs with Questionable Results                       11

Broad Scope Documents Used in This Analysis              12
                Information Technology Management

The Challenge. The DoD has succeeded in developing the concept
of the Global Information Grid, fielding certain key systems
like the Global Command and Control System, overcoming the
formidable Y2K conversion problem and eliminating redundant
in-house data processing capacity. With respect to improving
risk management across the board in information system
acquisitions, however, it is difficult to see substantive
improvement. The separate and ineffective information systems
acquisition rules were merged with the standard DoD weapon
systems acquisition guidelines and new information system
oversight procedures are being implemented, but are unproven.
The Department has compiled the central registry of systems
required by Section 8121 of the Defense Appropriations Act for
FY 2000 and has made the initial Clinger-Cohen Act compliance
certifications required under Section 8121 for major systems
at acquisition milestones. The IG, DoD, will issue a series
of reports over the next several months on the effectiveness
of the certification process, which probably will require
further refinements. Meanwhile, virtually every audit of
a DoD information technology acquisition project indicates
serious flaws.

The DoD command, control, intelligence and business functions
depend heavily on network based information technologies. This
dependence is not bad in itself, since these technologies have
enabled dramatic increases in efficiency and capability, but the
vulnerabilities created by this dependence must be addressed.
In addition to ensuring that new systems are sufficiently
capable, secure and interoperable, the DoD must focus over the
next several years on the growing problems created by under
investment in information technology infrastructure, increased
competition for use of the radio frequency spectrum, and severe
recruiting, retention and skills maintenance problems in the DoD
information technology workforce. We are putting considerable
emphasis on audit coverage of the DoD information technology
area, including the new Navy/Marine Corps Intranet experiment in
adopting seat management on a massive scale, but the fact that
DoD has many thousand essential systems and projects makes
comprehensive audit coverage infeasible.

Most Significant Recent Reports on Information Technology
D-2000-57, Summary of DoD Year 2000 Computing Issues IV,
12/16/99

D-2000-63, Information Technology Funding in the Department
of Defense, 12/17/99



                                                Enclosure 1
                                                               2

D-2000-125, Reporting Requirements for Major Automated
Information System programs, 5/17/00

D-2000-142, Defense Information Systems Agency’s Acquisition
Management of the Global Combat Support System, 6/9/00

D-2000-151, Acquisition and Management of the Defense Joint
Accounting System, 6/16/00

D-2000-162, Summary of Audits of Acquisition of Information
Technology, 7/13/00

Open Recommendations. The most significant open IG, DoD,
recommendations on Information Technology Management are as
follows:

1.   Because the DoD had never conducted a proper acquisition
     milestone review for the Defense Joint Accounting System
     (DJAS), we recommended that the Assistant Secretary of
     Defense (Command, Control, Communications and Intelligence)
     not approve DJAS for use until the Defense Finance and
     Accounting Service has demonstrated that the current
     acquisition strategy will reduce risks, ensure the required
     functionality for users, and meet DoD acquisition standards
     and Clinger-Cohen Act requirements. (Report D-2000-151,
     6/16/00)

2.   To enable senior managers to provide effective oversight,
     we recommended that the Assistant Secretary of Defense
     (Command, Control, Communications and Intelligence)
     implement procedures to verify project status information in
     Defense Acquisition Executive Summary reports and make full
     use of those reports to monitor the progress of selected
     systems. (Report D-2000-125, 5/17/00).

3.   To address the serious operational problems created by
     conflicting requirements for use of the radio frequency
     spectrum, we recommended that DoD improve coordination
     with nations hosting U.S. forces; implement centralized
     management of international telecommunications; and revise
     system acquisition guidance to identify potential deployment
     constraints. (Report 99-009, 10/9/98)

4.   To achieve better implementation of the DoD Joint Technical
     Architecture for information technology systems, we
     recommended that a detailed methodology be developed for
     cross-organizational and cross-functional coordination of
     implementation plans. (Report 98-023, 11/18/97)

5.   To improve interoperability, we recommended standardizing
     the message reporting formats for tactical intelligence
     dissemination. (Report 95-292, 8/17/95)
                                                               3

Closed Recommendations. The most significant recommendations
that were recently closed in this area are as follows:

1.   To correct problems with controlling sensitive case
     evidence, the Armed Forces Institute of Pathology
     implemented a new management information system.
     (Report 99-199, 4/2/99)

2.   To enable better accountability, the White House
     Communications Agency performed a complete inventory of
     its telecommunications assets. (Report 96-33, 11/29/95)

3.   To avoid Year 2000 conversion problems, the DoD implemented
     numerous audit recommendations, some of which were closed
     during the late stages of the conversion period. The
     official conversion period ended on March 31, 2000. For
     example, measures to avoid selling or donating non-Y2K
     compliant biomedical devices were fully implemented and
     documented toward the end of 1999 and non-compliant items in
     medical war reserves were identified as recently as early
     2000. All Y2K-related actions are now closed. (Multiple
     reports)

4.   To avoid restrictions on training and potential operational
     problems, the DoD and the Republic of Korea established
     agreements to avoid frequency spectrum conflicts affecting
     Army air defense weapons. (Report 98-211, 9/24/98)
                   Information System Security

The Challenge. Our semiannual report to the Congress for the
semiannual period ending March 31, 2000, discussed the growing
threat to DoD, other government, and commercial information
networks from criminals, vandals, hostile states and terrorists.
We reported that, while much effort was being made, the Federal
and DoD responses remained disjointed. As of late 2000, there
are still numerous policy gaps and much work remains to develop
effective coordination mechanisms, especially for national
infrastructure protection. The DoD has a robust intrusion
detection and reaction capability in place, but most other
aspects of the Defense Information Assurance Program are still
being developed. Although it was widely assumed that the
knowledge and experience gained in the Y2K conversion would be
applied to the information security area, there are few signs
that has happened.

Most Significant Recent Reports on Information System Security

D-2000-058, Identification and Authentication Policy, 12/20/99

D-2000-122, Information Assurance in the Advanced Logistics
Program, 5/12/00

D-2000-124, Information Assurance Challenges: A Summary of
Audit Results Reported December 1, 1998, through March 31, 2000,
5/15/00

D-2000-130, Foreign National Access to Automated Information
Systems, 5/26/00

D-2001-013, DoD Compliance With the Information Assurance
Vulnerability Alert Policy, 12/1/00

Open Recommendations. The most significant open IG, DoD,
recommendations related to Information System Security are as
follows:

1.   To achieve better results from the December 1999 DoD
     initiative to establish an Information Assurance
     Vulnerability Alert process, we recommended that the
     Assistant Secretary of Defense (Command, Control,
     Communications and Intelligence) issue formal guidance
     and a detailed implementation plan. We also recommended
     that certain DoD components, which had not registered in
     the program database or reported in accordance with DoD
     direction, take corrective action to ensure consistent and
     full implementation of the plan. (Report D-2001-013,
     12/1/00)


                                                 Enclosure 2
                                                            2

2.   To improve controls over access by foreign nationals to
     DoD information systems and networks in settings such as
     joint international program offices, we recommended that
     the Army and Navy revise their regulations related to
     access to local area networks and other information media.
     (Report D-2000-130, 5/26/00)

3.   To provide more consistency in the Defense Information
     Assurance Program, we recommended that the Assistant
     Secretary of Defense (Command, Control, Communications and
     Intelligence) update, clarify and standardize policy to
     define security requirements, especially those pertaining to
     identification and authentication. (Report D-2000-058,
     12/20/99)

Closed Recommendations. The most significant of our recently
closed recommendations in this area are as follows.

1.   To address information assurance vulnerabilities, computer
     security measures such as defining, controlling and
     monitoring user access to the Defense Joint Military Pay
     System were implemented. (Report 96-175, 6/15/00)

2.   To improve security, a variety of recommended actions were
     taken to address vulnerabilities related to the Defense
     Civilian Pay System. (Reports 99-107, 3/16/99 and 99-128,
     6/29/99)

3.   To improve security, controls were strengthened for the
     Defense Property Accountability System. (Report 99-225,
     7/29/99)

4.   To improve security, a number of recommended controls were
     implemented for the Standard Automated Materiel System.
     (Report D-2000-96, 3/7/00)
                     Other Security Concerns

The Challenge. Although the threats posed by unauthorized
intrusions into DoD information systems have received
considerable and justifiable attention, a wide range of
other security threats confront the DoD. Those threats include
terrorism against U.S. personnel and facilities, conducted by
either conventional or non-conventional means, and the
disclosure or theft of sensitive military technology. The
recent terrorist attack on the U.S.S. Cole in Yemen and security
breaches at the Department of Energy, the Central Intelligence
Agency and DoD graphically demonstrated that security
vulnerabilities need to be matters of utmost concern.

Recent audits have indicated that the DoD needs to improve
security measures to guard against both internal and external
threats. We have not audited force protection issues, but we
have extensively reviewed a number of other areas where
unacceptable vulnerability exists. These include the Defense
Personnel Security Program, which in 1999 was failing badly
and allowing hundreds of thousands of overdue security clearance
requests to accumulate. The Department took aggressive measures
during 2000 to address the problems at the Defense Security
Service and the situation has somewhat stabilized. However,
much remains to be done to correct past problems and attain
a fully effective security clearance program for DoD and
contractor personnel. For example, the DoD still lacks a
prioritization process for personnel security investigations.

Similarly, there is a consensus in the Executive Branch and
Congress that the export license regime of the 1990’s was
inefficient and probably ineffective in controlling the
unintended loss of U.S. military technology. During 2000,
the DoD worked with other Federal agencies to streamline the
licensing processes and approved additional resources to improve
the speed and value of license application reviews. The task of
determining to what extent the fundamental national export
control policies need to change, however, remains unfinished
business for the next Administration and Congress.

It is important to view security as a paramount consideration
for virtually all DoD programs and operations. Issues such as
properly demilitarizing military equipment before disposal,
ensuring that computers being sold or transferred outside the
DoD contain no classified material, and controlling the access
of contractors and visitors to technical information at military
engineering organizations and laboratories all need more
attention. We are focusing on those issues in ongoing audit
and follow-up efforts.



                                                 Enclosure 3
                                                                2

Most Significant Recent Reports and Testimony on Other Security
Concerns

Testimony to the Senate Armed Services Committee on National
Security Implications of Export Controls and the Export
Administration Act of 1999, 3/23/00

D-2000-110, Export Licensing at DoD Research Facilities, 3/24/00

D-2000-111, Security Clearance Investigative Priorities, 4/5/00

Testimony to the Senate Armed Services Committee on Issues
Facing the Department of Defense Regarding Personnel Security
Clearance Investigations, 4/6/00

Testimony to the Senate Committee on Governmental Affairs on
Export Control Implementation issues, 5/26/00

D-2000-134, Tracking Security Clearance Requests, 5/30/00

Report on Allegations of Breaches of Security:   Dr. John M.
Deutch, 8/28/00

Testimony to the Subcommittee on National Security, Veterans
Affairs and International Relations, House Committee on
Government Reform, on Defense Security Service Oversight,
9/20/00

D-2001-007, Foreign National Security Controls at DoD Research
Laboratories, 10/27/00

D-2001-008, Resources of DoD Adjudication Facilities, 10/30/00

Open Recommendations. The most significant open IG, DoD,
recommendations in the area of security matters, other than
those issues covered under Information System Security, are as
follows:

1.   To ensure that the continuing problem of delayed personnel
     security clearances and clearance updates is not aggravated
     by insufficient capacity for adjudicating investigative
     results, we recommended that the Directors and Chiefs of
     the DoD eight central adjudication facilities determine the
     resources required, considering all factors that affect the
     adjudication and appeals processes. We recommended that the
     Secretaries of the Army, Navy, and Air Force; the Chairman
     of the Joint Chiefs of Staff; and the Directors of the
     Defense Intelligence Agency, the Defense Office of Hearings
     and Appeals, the National Security Agency, and the
     Washington Headquarters Services provide sufficient
     resources to adjudicate and process appeals. We recommended
     that the Assistant Secretary of Defense (Command, Control,
                                                                3

     Communications and Intelligence), in conjunction with the
     eight central adjudication facilities, analyze the impact
     on workload of the initial fielding of the Joint Personnel
     Adjudication System. Finally, we recommended that the Under
     Secretary of Defense (Comptroller) and the Assistant
     Secretary of Defense (Command, Control, Communications and
     Intelligence) review the DoD Components’ budget submissions
     to ensure that the DoD budget for FY 2002 and the outyears
     enables the central adjudication facilities to meet
     forecasted workload requirements. (Report D-2001-008,
     10/30/00)

2.   To tighten controls over the release of technical
     information to foreign visitors to DoD laboratories,
     we recommended that the Director, Defense Advanced
     Research Projects Agency, and the Department of the Navy
     ensure foreign disclosure instructions from foreign visit
     approval authorities are disseminated to the program
     managers hosting foreign nationals. We recommended that
     the Director, Defense Advanced Research Projects Agency,
     enforce and improve security procedures to ensure visits
     by foreign nationals are sufficiently documented. We also
     recommended that the Director, Defense Advanced Research
     Projects Agency, prepare a manual providing specific
     procedures for the preparation of Visit Control Center
     records and ensure the Defense Intelligence Agency visit
     approval letter is used as the primary source document for
     information regarding official foreign national visitors.
     (Report D-2001-007, 10/27/00)

3.   To preclude disclosure of sensitive information, we
     recommended that the hard drives of computers being
     transferred to non-DoD users or sold be destroyed.
     (Report of Investigation on Dr. John M. Deutch, 8/28/00)

4.   To eliminate the inefficiencies created by the inability of
     the Defense Security Service (DSS) to track all personnel
     security requests and provide feedback on their status to
     requestors during the investigative process, we recommended
     that DSS take measures to acquire the requisite tracking
     capability. (Report D-2000-134, 5/30/00)

5.   To improve the efficiency of the DoD personnel security
     clearance investigative efforts, we recommended that the
     Assistant Secretary of Defense (Command, Control,
     Communications and Intelligence) implement a process
     for prioritizing security clearance requests.
     (Report D-2000-111, 4/5/00)
                                                            4

6.   To achieve better compliance with Federal export control
     regulations requiring “deemed export” licenses for technical
     information released by DoD to foreign governments, firms
     or individuals, we recommended that the Under Secretary
     of Defense for Policy coordinate with the Departments
     of Commerce and State to develop guidance for applying
     Federal deemed export licensing requirements and require
     implementation of that guidance by the Military Departments.
     In addition, we recommended that the Director, Defense
     Research and Engineering, coordinate with the Departments
     of Commerce and State to develop guidance for applying
     deemed export licensing requirements at DoD research
     facilities and develop export control procedures to guide
     DoD research facilities with regard to foreign national
     visits. We also recommended that the Deputy Under Secretary
     of Defense (International and Commercial Programs) update
     DoD instructions to give the Military Departments direct
     coordination authority with the Department of Commerce
     for all data exchange agreement annexes. Further, we
     recommended that the Military Departments update existing
     guidance to require coordination of data exchange agreement
     annexes with the Department of Commerce. (Report D-2000-
     110, 3/24/00)

7.   To eliminate several deficiencies, we recommended
     improvements in guidance, training and data bases related to
     the export license review process. (Report 99-186, 6/18/99)

8.   To achieve better efficiency and enhance confidence in the
     consistency and competence of decisions made on personnel
     security clearance investigative results, we recommended
     implementing a peer review program between adjudication
     facilities and implementing a professional training
     certification program for adjudicators. (Report 98-124,
     4/27/98)

9.   To achieve more efficient, effective and secure practices
     for handling and disposing of Defense material in the
     possession of contractors, we recommended changing
     regulations to require identification of munitions list
     items early in the acquisition process. (Report 97-134,
     4/22/97)

Closed Recommendations. The most significant of our
recommendations that were recently closed in this area are as
follows:

1.   To assure the quality of adjudication of personnel security
     clearance investigation results, we recommended developing
     standard training and the Department has done so. The
                                                               5

     portion of this recommendation related to certification
     remains open, however, as indicated in Item 8 above.
     (Report 98-124, 4/27/98)

2.   To avoid unnecessary investigations and administrative
     delays, the DoD changed policy to assure reciprocity among
     DoD special access programs. (Report 98-67, 2/10/98)
                      Financial Management

The Challenge. The DoD remains unable to comply with the
requirements in the Chief Financial Officers Act of 1990 and
related legislation for auditable annual financial statements.
The results of audits of the DoD-wide and other major financial
statements for FY 1999 were essentially the same as in previous
years. The Military Retirement Fund statements received a clean
audit opinion, but all other DoD financial statements were
unauditable. Previous DoD goals for obtaining clean opinions
on all or most annual statements during the FY 2000 to FY 2003
timeframe were unrealistic and it is unclear what a realistic
goal would be at this point. A few relatively small DoD
organizations and funds may achieve favorable opinions in the
near future, but the major funds still pose a formidable
challenge. The Department also has major concerns that the
Federal Accounting Standards Advisory Board could issue guidance
that would seriously complicate this challenge.

During the past year, the DoD made reasonable progress in
addressing major impediments to favorable audit opinions.
Policies were issued to implement various new Federal
accounting standards and contractors were engaged to provide
their expertise on a variety of issues, such as determining the
value of different categories of property. In addition, the
Department took steps to apply the lessons learned from the
successful DoD Y2K conversion program to the financial system
compliance effort. The DoD Senior Financial Management Council,
which had not met for several years, was reconstituted to ensure
senior management involvement and coordination. The initial
milestone to identify the critical systems for financial
reporting, March 2000, was unattainable and efforts to define
criticality and identify systems continue, but we strongly
support this initiative.

The IG, DoD, General Accounting Office (GAO) and Military
Department auditors are developing a standard audit approach
for validating the progress of the critical systems toward full
compliance. Resources permitting, we will seek to provide the
same kind of strong support that helped the Y2K conversion to
succeed, but the system remediation and validation workload will
require considerable contractor support to the components,
including the Defense Finance and Accounting Service.

One of the benefits of using the Y2K management approach for
financial systems compliance is that it provides good metrics
for that particular aspect of the DoD financial management
improvement effort. As welcome as those metrics will be for
measuring system compliance status, however, they will not
measure the financial usefulness of the data to managers and
appropriators. Numerous recent statements and testimony to
Congress by the Office of Management and Budget (OMB), GAO

                                                  Enclosure 4
                                                               2

and DoD officials have stressed that the ultimate goal of
financial management reform legislation is ensuring useful
financial information for sound decision-making, not merely
clean audit opinions on annual financial statements. We
strongly agree. Audit opinions are a simple and readily
understandable metric, but judging the usefulness of financial
information is far more difficult. Likewise, audit opinions on
financial statements provide little insight into the efficiency
of functions such as paying contractors or capturing the cost of
operations of individual bases and work units. The DoD has
long-standing deficiencies in both of those areas.

Most Significant Recent Reports and Testimony on Financial
Management

D-2000-69, Department of Defense Agency-Wide Statement of
Budgetary Resources, 12/29/99

D-2000-91, Internal Controls and Compliance with Laws and
Regulations for the DoD Agency-Wide Financial Statements for
FY 1999, 2/25/00

Testimony to the Subcommittee on Government Management,
Information and Technology, House Government Reform Committee,
on Defense Financial Management, 5/9/00

D-2000-136, Reporting of Performance Measures in the DoD
Agency-Wide Financial Statements, 5/31/00

D-2000-139, Controls Over the Integrated Accounts Payable
System, 6/5/00

D-2000-156, DoD Payroll Withholding Data for FY 1999, 6/29/00

Testimony to the Task Force on Defense and International
Relations, House Budget Committee, on Department of Defense
Financial Management, 7/20/00

D-2000-168, Data Supporting the Environmental Liability Line
Item on the FY 1999 DoD Financial Statements, 7/27/00

D-2000-172, Accuracy of the FY 1999 Additions, Deletions and
Modifications to the Military Departments’ Real Property
Databases, 8/11/00

D-2000-179, Department-Level Accounting Entries for FY 1999,
8/18/00

D-2000-194, Demographic Data Supporting the DoD Military
Retirement Health Benefits Liability Estimate, 9/29/00
                                                              3

Open Recommendations. The most significant open IG, DoD,
recommendations related to Financial Management are as follows:

1.   To decrease the volume of accounting adjustments made
     in compiling DoD financial statements and to eliminate
     unsupported adjustments, we recommended that the Under
     Secretary of Defense (Comptroller) develop a set of
     corrective measures as part of the DoD Chief Financial
     Officers Act Implementation Strategies. (Report
     D-2000-179, 8/18/00)

2.   To improve the accuracy of the estimates included in DoD
     financial statements for environmental cleanup and hazardous
     waste disposal liabilities, we recommended that the Deputy
     Under Secretary of Defense (Environmental Security) revise
     applicable guidance. (Report D-2000-168, 7/27/00)

3.   To ensure better accuracy in withholding required amounts
     from DoD civilian payrolls, we recommended that the
     personnel and financial management communities ensure
     accurate payroll election records and prompt transmission
     of personnel payroll data; correct errors found by auditors;
     implement a review system for employee payroll elections;
     and establish performance measures for assessing the
     accuracy of payroll withholding data. We also recommended
     that the Director, Defense Finance and Accounting Service,
     develop software capable of correctly extracting electronic
     files that support the withholding amounts reported and
     implement management control procedures to ensure clear
     identification and communication of responsibilities.
     (Report D-2000-156, 6/29/00)

4.   To improve the linkage between DoD Government Performance
     and Results Act reporting and annual financial statements,
     we recommended that the Under Secretary of Defense
     (Comptroller) develop consistent program categories,
     performance goals, and measures; modify the DoD Financial
     Management Regulation to instruct preparers of the
     Statements of Net Cost to use program cost elements
     consistent with performance goals; address requirements
     for managerial cost accounting systems capable of
     supporting performance measurement efforts in future
     versions of the DoD Financial Management Improvement Plan;
     and include a discussion of performance measures in the
     Overview section of future DoD Agency-wide financial
     statements. (Report D-2000-136, 5/31/00)

5.   To reduce the volume of disbursements that are not matched
     to obligation records, we recommended that the Under
     Secretary of Defense (Comptroller) revise policy to set
     strict time standards for resolving problem in-transit
     disbursements. (Report 99-135, 7/20/99)
                                                              4

6.   To achieve necessary financial control,   we recommended a
     complete reconciliation of the National   Guard and Reserve
     Equipment Appropriation by the National   Guard Bureau, which
     subsequently transferred its accounting   function to the
     Defense Finance and Accounting Service.    (Report 99-087,
     2/24/99)

7.   To reduce the possibility of an Antideficiency Act violation
     and comply with DoD policy, we recommended that the National
     Guard Bureau establish administrative obligations for
     overage unmatched disbursements in its Army accounts.
     (Report 98-30, 12/3/97)

8.   To facilitate accurate billing for U.S. military expenses
     that will be reimbursed by the United Nations, we
     recommended Under Secretary of Defense (Comptroller) actions
     to define the cost elements to be considered and revise
     regulations accordingly. (Report 97-77, 1/27/97)

9.   To improve the accuracy of Navy accounting data, we
     recommended that performance measures be established to
     track compliance with policy to record obligations within
     10 days. (Report 96-145, 6/6/97)

10. To improve financial control of DoD contracts, we
    recommended that the Defense Finance and Accounting
    Service make a concerted effort to reduce the backlog
    of unreconciled contracts to the equivalent of six-months
    work at Columbus Center. (Report 96-141, 6/4/96)

11. To eliminate incorrectly distributed Combined Federal
    Campaign deductions, we recommended that the Defense Finance
    and Accounting Service make procedural and payroll system
    changes. (Report 95-244, 6/21/95)

12. To ensure accurate billing to Foreign Military Sales
    Customers, we recommended that the Under Secretary of
    Defense (Comptroller) revise regulations on how to calculate
    packing, crating and handling costs. (Report 91-055,
    2/27/91)

Closed Recommendations. The most significant of our
recommendations in this area that were recently closed are as
follows:

1.   To apply lessons learned from the successful DoD Year 2000
     Conversion to the challenge of improving the nearly 200
     information systems used to compile DoD financial
     statements, DoD has adopted essentially the same management
     approach. (Report D-2000-41, 11/26/99)
                                                              5

2.   To improve financial reporting related to DoD real property,
     the Chief Financial Officer revised regulations to specify
     what supporting documentation must be retained to validate
     the cost of acquiring, constructing or improving that
     category of assets. (Report 99-243, 8/27/99)

3.   To improve internal controls, the Defense Finance and
     Accounting Service issued written guidance for journal
     voucher entries on financial records. (Report 98-50,
     1/20/98)

4.   To improve the reliability of contingency liability
     amounts shown on DoD financial statements, DoD issued
     guidance requiring the verification, validation and
     accreditation of computer models used to compute “cost
     to complete” estimates for the Defense Environmental
     Restoration Program. (Report 99-209, 7/9/99)
                           Acquisition

The Challenge. The DoD is working toward the goal of becoming
a world-class buyer of best value goods and services from a
globally competitive industrial base. The Department hopes
to achieve this transformation through rapid insertion of
commercial practices and technology, business process
improvement, creating a workforce that is continuously retrained
to operate in new environments, and heavily emphasizing faster
delivery of material and services to users. In order to fulfill
these objectives, the DoD has initiated an unprecedented number
of major improvement efforts, including at least 40 significant
acquisition reform initiatives.

Despite the previous successes and continued promise of reforms,
the business of creating and sustaining the world’s most
powerful military force remains expensive and vulnerable to
fraud, waste and mismanagement. In FY 1999, the DoD bought
about $140 billion in goods and services, in 14.8 million
purchasing actions, which means 57,000 purchasing actions on
an average working day. Statistics for FY 2000 are not yet
available, but will be similar. The scope, complexity, variety
and frequent instability of Defense acquisition programs pose
particularly daunting management challenges. No major
acquisition cost reduction goals have yet been achieved and the
results of most of the specific initiatives are still to be
determined, particularly since many have not yet been fully
implemented and are in a developmental or pilot demonstration
phase.

In the rush to streamline and incorporate commercial practices
and products, the Department cannot compromise its insistence
on quality products and services at fair and reasonable prices.
An inherent challenge throughout the Department’s acquisition
reform effort is ensuring that critically needed controls remain
in place and there is proper oversight and feedback on new
processes. Recent audits continued to indicate a lack of
effective means for identifying best commercial practices and
adapting them to the public sector; overpricing of spare parts;
inattention to good business practices and regulations when
purchasing services; poor oversight of the several hundred
medium and small acquisition programs; and adverse consequences
from cutting the acquisition workforce in half without a
proportional decrease in workload.

It should be axiomatic that each reform initiative needs
periodic evaluation, based on quantifiable performance measures,
and fine-tuning. There is a tendency, however, for initiatives
to be put into place without explicit provision for periodic and
objective review. For example, in 1994 the DoD mandated the use
of an open systems approach in the acquisition process to reduce
the cost of ownership of weapons systems while increasing

                                                Enclosure 5
                                                             2

competition, interoperability and useful life. We reported in
June 2000 that, of 17 major weapon acquisition programs approved
at key development milestones between March 1996 and July 1999,
14 programs lacked clearly defined open system design objectives
or a strategy for achieving such objectives. In addition, DoD
guidance did not require program managers to assess the impact
of a given level of design systems. The problems in
implementing this particular initiative are typical of those
to be expected in mandated reforms that may not be adequately
understood, fully supported or enforced over time.

Although the DoD must continue to address the challenge of how
to control the cost of purchased goods and services, the most
fundamental acquisition issues confronting the Department relate
to requirements and funding. The expanding national dialogue
on military missions, the pending Quadrennial Defense Review
and the ideas of a new administration and Congress could
significantly alter DoD missions, military force structure and
acquisition requirements. Whether changes in requirements are
major or minor, there needs to be a far-reaching rebalancing of
acquisition programs to match available funding. In addition,
it does not appear that measures taken during the 1990’s to
provide more stability in acquisition program funding were
effective.

Finally, we believe that the Department needs to put more
acquisition reform emphasis on ensuring the quality,
serviceability and safety of purchased equipment, parts and
supplies. Concentrating on prices and timely delivery is vital,
but quality should be the most important attribute for DoD
purchases, especially for materiel used by the warfighters.

Most Significant Recent Reports on Acquisition
D-2000-65, Costs Charged to Other Transactions, 12/27/99

D-2000-79, Summary of DoD Process for Developing Quantitative
Munitions Requirements, 2/24/00

D-2000-88, DoD Acquisition Workforce Reduction Trends and
Impacts, 2/29/00

D-2000-100, Contracts for Professional, Administrative and
Management Support Services, 3/10/00

Testimony to Subcommittee on Government Management Information
and Technology, House Committee on Government Reform, on Defense
Acquisition Management, 3/16/00

D-2000-105, Contracting for Anthrax Vaccine, 3/22/00
                                                               3

Testimony to Senate Armed Services Committee on Defense
Acquisition, 4/26/00

D-2000-149, Use of an Open Systems Approach for Weapon Systems,
6/14/00

D-2000-174, V-22 Osprey Joint Advanced Vertical Aircraft,
8/15/00

D-2000-187, The Low-Rate Initial Production Decision for the
Joint Biological Point Detection System, 9/11/00

D-2000-192, Results of the Defense Logistics Agency Strategic
Supplier Alliance for Catalog Items, 9/26/00

D-2001-004, Disposal of Excess Government-Owned Property in
the Possession of Contractors, 10/13/00

D-2001-12, Acquisition of the Armored Medical Evacuation
Vehicle, 11/22/00

Open Recommendations. The most significant open IG, DoD,
recommendations on Acquisition are as follows:

1.   To provide better oversight of weapon system acquisition
     programs, the Department of the Army should designate the
     Army Acquisition Executive, not lower ranking officials, as
     the Milestone Decision Authority for Acquisition Category II
     programs. (Report D-2000-187, 9/11/00)

2.   To improve implementation of DoD policy on using open
     weapon system design approaches, we recommended that the
     Under Secretary of Defense (Acquisition, Technology and
     Logistics) enforce the requirement that program managers
     fully consider the use of open system design techniques.
     We also recommended that program managers be required to
     include open system objectives in test and evaluation master
     plans and to demonstrate their open system approach at
     milestone decisions. Additionally, we recommended that
     the Joint Task Force provide program managers with general
     templates for inserting open systems design language in the
     key acquisition planning documents and provide guidance to
     help program managers document the means for determining the
     extent of system design openness. (Report D-2000-149,
     6/14/00)

3.   To address widespread deficiencies in contracting practices
     in contracts for services, we recommended that the Deputy
     Under Secretary of Defense (Acquisition Reform) develop
     training on defining requirements for contracts for
     professional, administrative and management support
     services; train contracting and program personnel in the
                                                            4

     award and administration of contracts for these services;
     and emphasize, in that training, the need to avoid the
     kinds of deficiencies noted in our audit report. We also
     recommended that Senior Acquisition Executives for the Army,
     Navy, and Air Force establish centers of excellence with
     trained and experienced personnel that can be used by
     acquisition personnel when procuring services, make all
     acquisition personnel aware of the problems identified in
     our report, and develop a time-based plan with goals and
     performance measures to determine improvements in the
     acquisition of professional, administrative and management
     support services. (Report D-2000-100, 3/10/00)

4.   To decrease the risk of continued overpricing of spare parts
     on sole-source contracts when certified cost or pricing data
     are not obtained, we recommended that the Defense Logistics
     Agency attempt to expand its successful strategic supplier
     approach. (Report D-2000-098, 3/8/00)

5.   To address the systemic problems indicated in numerous
     audit reports on DoD processes for determining munitions
     requirements, we recommended that the Under Secretary of
     Defense (Acquisition, Technology and Logistics) and the
     Joint Staff designate a central authority for updating
     guidance and overseeing its implementation. The oversight
     responsibility must extend to assessing and validating the
     currency of planning scenarios and munitions utilization
     factors used to quantify requirements. (Report D-2000-079,
     2/24/00)

6.   To improve management of agreements other than contracts
     and grants for prototype projects, we recommended that the
     Directors, Defense Research and Engineering and Defense
     Procurement, issue “other transaction” guidance in DoD
     directives, instructions, or regulations. The guidance
     should preclude the use of Government-funded research as
     contractor cost share; provide for reasonable use charge
     of contractor assets; identify how to design an access to
     records clause; identify the roles and responsibilities
     of the Defense Contract Audit Agency; provide agreement
     officers’ training on the effects of independent research
     and development reimbursement on contractor cost share;
     require agreement officers to inform the administrative
     contracting officer and the Defense Contract Audit Agency
     of the award of an other transaction for their review for
     potential inconsistent accounting treatment of cost shares;
     and require contractors to use DoD-approved overhead rates
     when available. In addition, reports to Congress for other
     transactions should show the effect of independent research
     and development reimbursements on contractor cost share.
     (Report D-2000-065, 12/27/99)
                                                             5

7.   To address issues related to the impact on competition of
     using multiple award task order contracts, we recommended
     that the Director, Defense Procurement, reconsider the need
     for a guaranteed minimum for every contract awardee and
     issue additional guidance. (Report 99-116, 3/31/99)

8.   To avoid overpricing, we recommended a variety of Defense
     Logistics Agency contracting actions. (Report 99-026,
     10/30/98)

9.   To determine whether legal violations occurred in the
     procurement of certain clothing and textiles, we recommended
     a series of Anti-Deficiency Act investigations, which will
     entail an Office of General Counsel determination on whether
     Buy American Act and Berry Amendment restrictions apply to
     DoD purchases of commercial items. (Report 99-023, 11/1/99)

10. To ensure proper controls, we recommended the issuance of
    revised guidance on requesting waivers from weapon system
    live fire testing and on identifying candidates for testing.
    (Report 97-214, 9/9/97)

11. To achieve a more effective program for acquiring foreign
    weapons and other material for testing, we recommended that
    the Under Secretary of Defense (Acquisition, Technology and
    Logistics) issue new prioritization guidance. (Report
    97-133, 4/21/97)

12. To revitalize the Value Engineering   Program, we recommended
    that the Under Secretary of Defense   (Acquisition, Technology
    and Logistics) issue new guidelines   on using Value
    Engineering and reporting savings.    (Reports 97-121, 4/9/97
    and 97-3, 10/9/96)

Closed Recommendations. The most significant of our recently
closed recommendations in this area are as follows.

1.   To enable evaluation of the impact of emphasizing the
     procurement of more commercial items, the Defense Logistics
     Agency (DLA) collected price trend data from the inventory
     control points. The Military Departments need to emulate
     DLA so that the DoD and Congress have reliable information
     on the outcome of acquisition reforms. (Report 98-88,
     3/11/98)

2.   To improve coordination and management control, the Military
     Departments and Ballistic Missile Defense Organization
     issued guidance on management of aerial target systems.
     (Report 92-20, 12/31/91)
                                                            6

3.   To achieve cost reductions, the Theater High Altitude Area
     Defense Program implemented a multi-year procurement
     strategy and component breakout for competition. (Report
     96-14, 10/23/95)

4.   To avoid problems with Foreign Military Sales customers,
     regulations were changed to require longer records retention
     periods after case closure. (Report 95-304, 9/11/95)
                           Health Care

The Challenge. The Military Health System (MHS) costs over
$16 billion annually and serves approximately 8.2 million
eligible beneficiaries through its health care delivery program,
TRICARE. TRICARE provides health care through a combination of
direct care at Military Department hospitals and clinics and
purchased care through managed care support contracts. The MHS
has dual missions to support wartime deployments (readiness) and
provide health care during peacetime.

The MHS faces three major challenges: cost containment,
transitioning to managed care, and data integrity. These
challenges are complicated by the inadequate information systems
available to support the MHS.

Cost containment within the MHS is challenged by the continued
lack of good cost information combined with significant levels
of health care fraud. Lack of comprehensive patient-level cost
data has made decisions regarding whether to purchase health
care or to provide the care at the military treatment facility
more difficult. Recent legislation, which expands medical
benefits for military retirees to include pharmaceuticals, will
entail considerable program growth in an area where cost control
has been difficult. Past audits have questioned the efficiency
of duplicative pharmaceutical procurements by DoD and the
Department of Veterans Affairs.

Data integrity in management information systems has been a
persistent problem that affects both health care program
effectiveness and efficiency. The lack of complete and accurate
data has resulted in an inability to clearly identify health
care costs, identify unit and individual readiness for
deployment, or coordinate direct health care with purchased
health care. The DoD management has put considerable emphasis
on improved data quality and significant progress is being made.

To combat health care fraud, the Defense Criminal Investigative
Service has developed an active partnership with the TRICARE
Management Activity to give high priority to health care fraud
cases, which comprise a growing portion of the overall
investigative workload. As of September 30, 2000, we had
521 open criminal cases in this area.

Transitioning to managed care is a critical element in peacetime
health care delivery. The issue is complicated by a lack of
understanding about TRICARE, multiple TRICARE programs offering
similar but not identical benefits, and increased focus on
providing peacetime health care to the aging retiree population.
An audit of the TRICARE marketing program in 1999 showed that,


                                                 Enclosure 6
                                                               2

while the level of beneficiary understanding of TRICARE was
increasing, DoD had provided Service members with incomplete,
incorrect, or inconsistent information. In addition, with
increased base and hospital closures and military downsizing,
more and more older beneficiaries (those eligible for Medicare
but not DoD-purchased health care) find themselves without
accessibility to direct care resources. Attempts to address
that problem have led to a proliferation of health care
demonstration programs that have further confused the eligible
population.

Most Significant Recent Reports and Testimony on Health Care

Testimony to the Subcommittee on Oversight and Investigations,
House Committee on Veterans Affairs, on Procuring
Pharmaceuticals for the Department of Defense, 5/25/00.

Open Recommendations. Audit coverage has been severely limited
in the area of Health Care for the past several years. The most
significant open IG, DoD, recommendations on this subject are as
follows:

1.   To improve user acceptance of TRICARE, we recommended
     issuing clear requirements for a comprehensive national
     TRICARE marketing program. (Report 00-016, 10/21/99)

2.   To avoid duplicate payments for care provided in medical
     treatment facilities to retired individuals enrolled in
     Medicare health maintenance organizations, we recommended
     that DoD and the Department of Health and Human Services
     develop a strategy and propose any necessary legislation.
     (Report 99-152, 5/28/99)

3.   To achieve greater efficiency and lower costs in procuring
     pharmaceuticals, we recommended that the DoD and Department
     of Veterans Affairs merge their procurement processes.
     (Report 98-154, 6/15/98)

4.   To address deficiencies in medical war reserves in Korea, we
     recommended completing a Medical Logistics Interservice
     Support agreement. (Report 97-170, 6/16/97)

Closed Recommendations. The most significant of our recently
closed recommendations in this area are as follows.

1.   To enable better management of DoD graduate medical
     education programs, system changes have been implemented to
     provide good cost visibility. (Report 97-147, 5/23/97)
                                                            3

2.   To eliminate discounts that had the effect of encouraging
     smoking and driving up DoD health care costs, policy was
     issued to make commissary and exchange retail prices for
     tobacco products consistent with commercial prices.
     (Report 97-60, 12/31/96)
                   Supply Inventory Management

The Challenge. Supply management to support U.S. military
forces, which are located around the world and use several
million different types of weapon systems, other equipment,
spare parts, fuel, apparel, food items, pharmaceuticals and
other supplies, may be the most difficult logistics challenge
in the world. Despite the clear need to modernize DoD supply
operations, it should be noted that U.S. military logistics
performance has been excellent in demanding situations such
as the Gulf War and the numerous recent deployments to
comparatively remote areas of the world.

Every facet of supply management involves challenges and it is
critically important to recognize that weapon systems and other
equipment must be designed, selected and procured with logistics
support as a paramount concern. The use of standardized parts,
commercial items, non-hazardous materials and easy to maintain
components will considerably ease the supply support problem for
each system or piece of equipment. Conversely, inattention to
such factors during acquisition will increase the risk of higher
costs and logistics failures. The logistics community relies
heavily on program managers and operators to help forecast
supply requirements, and historically this has been very
difficult. The Department has been justifiably criticized for
accumulating excessive supply inventories, but supply shortfalls
are at least as great a concern due to the impact on readiness.
Current logistics reform initiatives are principally focused on
introducing private sector logistics support practices, which
in turn are based on applying web-based technology. The DoD
has initiated a myriad of logistics improvement initiatives,
most of which are still in early stages. We anticipate
continuing valid concerns about all phases of supply support,
including requirements determination, procurement, distribution,
and disposal.

Most Significant Recent Reports on Supply Inventory Management
D-2000-086, Assuring Condition and Inventory Accountability of
Chemical Protective Suits, 2/25/00

D-2000-113, Required Delivery Dates in Requisitions for
Secondary Items of Supply Inventory, 4/19/00

D-2000-147, DoD Pilot Program for Shipment of Personal
Property – Military Traffic Management Command Reengineering
DoD Personnel Property Program Pilot, 6/12/00

D-2000-171, Reacquisition of Surplus Materiel by the Defense
Logistics Agency, 8/9/00


                                                 Enclosure 7
                                                             2

D-2000-185, Allegations to the Defense Hotline Concerning
Management of Obsolete Reparable Items, 9/7/00

D-2001-2, Defense Logistics Agency Customer Returns Improvement
Initiative Program, 10/12/00

D-2001-4, Disposal of Excess Government-Owned Property in
the Possession of Contractors, 10/13/00

Open Recommendations. The most significant open IG, DoD,
recommendations in the area of Supply Inventory Management
are as follows:

1.   To ensure that poor quality materiel identified by users is
     removed from active inventory and other appropriate action
     is taken, we recommended that the Defense Logistics Agency
     fully implement the Customer Returns Improvement Initiative
     Program at all distribution depots. (Report D-2001-002,
     10/12/00)

2.   Military units and other organizations designate Required
     Delivery Dates (RDD) on supply requisitions. To improve the
     appropriate use of RDD information by personnel involved in
     preparing or filling supply requisitions, we recommended
     that the Assistant Deputy Under Secretary of Defense (Supply
     Chain Integration) streamline the number of RDD categories.
     We recommended that the Department of the Army improve
     awareness of the importance of RDD, streamline rules for
     their use, and provide training. We also recommended
     Defense Logistics Agency and Army actions to implement
     automated edit of RDD. (Report D-2000-113, 4/19/00)

3.   To reengineer the DoD property disposal process, we
     recommended a comprehensive reworking of management controls
     for all facets of the disposal process, which should result
     in a plan addressing controls, training, management
     information and performance measurement. (Report 99-029,
     11/31/98)

4.   To improve efficiency, we recommended that there be standard
     DoD-wide procedures for contractors to report the return of
     repairable assets from DoD users to contractor repair
     facilities. (Report 97-014, 11/1/96)

5.   To improve asset management, we recommended that the
     Services take measures to enhance the visibility that
     Primary Inventory Control Activities have over materiel at
     the Secondary Inventory Control Activities, so that
     purchases of items already in stock are minimized and good
     redistribution decisions are feasible. (Report 95-303,
     9/1/95)
                                                             3

Closed Recommendations. The most significant of our
recommendations that were recently closed in this area are
as follows:

1.   To accelerate the disposal of obsolete material in the
     Defense National Stockpile, the Defense Logistics Agency
     developed an aggressive sales strategy that increased sales
     from $446 million in FY 1999 to $670 million in FY 2000.
     (Report 99-044, 12/3/98)

2.   To eliminate under charging Foreign Military Sales
     customers with Cooperative Logistics Supply Support
     Arrangements, the Military Departments addressed 99 percent
     of the $140 million in under billing identified by auditors.
     (Report 95-31, 11/21/94)
                   Other Infrastructure Issues

The Challenge. Despite numerous management initiatives to
reduce support costs so that more funds could be applied to
recapitalizing and ensuring the readiness of military forces,
more can and should be done. The number of bases and other
installations remains excessive, justifying at least one more
round of base closures and realignments. Organizations
throughout the Department need to continue reengineering their
business processes and striving for greater administrative
efficiency.

Unfortunately, cutting support costs can easily become
counterproductive if the quality of support services and
facilities is degraded. In addition, there are numerous bona
fide requirements in the support area that will be expensive
to address. For example, the DoD urgently needs to replace at
least one third of its housing units over the next few years.
The resulting $30 to $40 billion cost will compete in the budget
against other recapitalization needs. Finally, DoD has one of
the largest environmental restoration programs in the world and
this area is particularly challenging in terms of cost
containment and compliance with continually evolving laws and
regulations. During the past year, incidents such as the outcry
in Korea over the spill of chemicals from a U.S. facility have
underscored the growing international dimension of the DoD
environmental challenge.

Most Significant Recent Reports on Other Infrastructure Issues

D-2000-121, Hazardous Material Management for Major Defense
Systems, 5/4/00

D-2000-127, Program Management of the Materials and Processes
Partnership for Pollution Prevention, 5/22/00

D-2000-157, DoD Hazardous Waste Management and Removal Services
in the U.S. European Command, 6/28/00

D-2000-170, Disposal of Range Residue, 8/4/00

D-2000-175, Defense Information Systems Agency Right-Sizing Plan
for Regional Support Activities, 8/15/00

Open Recommendations. Significant open recommendations in this
area include the following:

1.   To address hazardous conditions related to munitions residue
     on DoD training and test ranges, we recommended 25 actions
     in Report 97-213, 9/5/97. A follow-up audit indicated


                                                 Enclosure 8
                                                              2

     little or no action on 10 of those 25 agreed-upon
     recommendations, which we have reiterated. (Report
     2000-170, 8/4/00)

2.   To control the risk of poor performance by environmentally
     hazardous waste disposal contractors for U.S. European
     Command components, we recommended a variety of actions by
     the Military Departments and the Defense Logistics Agency.
     (Report D-2000-157, 6/28/00)

3.   To ensure close attention to weapon system life cycle costs
     driven by hazardous material handling and disposal
     requirements, we recommended that acquisition program
     managers comply fully with DoD policies encouraging focus on
     those requirements early in the acquisition cycle. (Report
     D-2000-121, 5/4/00)

4.   To establish a more reliable process for estimating
     unaccompanied personnel housing requirements, we recommended
     using a standard form and methodology. (Report 99-239,
     10/8/99)

5.   To address problems in assessing family housing
     requirements, we recommended developing a standardized
     process. (Report 98-6, 10/8/97)

6.   To improve efficiency, we recommended enhanced systems and
     controls for the DoD Personal Property Shipment and Storage
     Program. (Report 97-175, 6/23/97)

Closed Recommendations. The most significant of our
recommendations in this area that were recently closed are
as follows:

1.   To calculate future unaccompanied enlisted personnel housing
     requirements more accurately, the Navy adjusted its computer
     model and related guidance to reflect the new barracks
     construction standard. (Report 98-80, 2/23/98)

2.   To eliminate environmental hazards caused by lead
     contamination, the Army Reserve closed its indoor firing
     ranges and the Army National Guard took steps to reduce
     risks. (Report 98-170, 6/30/98)

3.   To avoid friction with the host government and protect U.S.
     personnel from personal liability in environmental disputes,
     the Army developed training on the implications of the 1993
     Supplementary Status of Forces Agreement with Germany.
     (Report 99-251, 9/15/99)
                            Readiness

The Challenge. Concern about the readiness of U.S. military
forces was a principal issue in congressional hearings and
was addressed during the Presidential election campaign.
There is a fairly broad consensus that readiness shortfalls
exist, although the extent of impairment to mission capability
is more contentious. Clearly, there are spare parts shortages;
significant backlogs for depot maintenance ($1.2 billion) and
real property maintenance ($27.2 billion); concerns related to
recruiting, retention and morale; disproportionately numerous
deployments for some units; unanticipatedly high operating
tempo; and equipment availability problems. The DoD and
Congress have made budget adjustments and military entitlements
have been expanded. The Department’s readiness posture
ultimately depends, however, on the effectiveness of hundreds
of support programs, which range from training to supply
management.

The DoD audit community supported the successful program to
overcome the Year 2000 computer challenge, which the Department
considered to be a major readiness issue, with the largest audit
effort in DoD history. The IG, DoD, issued 185 “Y2K” reports.
Due to that massive commitment, resource constraints and other
workload, our recent coverage of other readiness issues was
severely limited. We plan to restore at least some of the
necessary coverage during FY 2001, continuing our particular
concentration on chemical and biological defense issues.

Most Significant Recent Reports and Testimony on Readiness

D-2000-086, Assuring Condition and Inventory Accountability of
Chemical Protective Suits, 2/25/00

Testimony to Subcommittee on National Security, Veterans
Affairs and International Relations, House Committee on
Government Reform, 6/21/00

Open Recommendations. The most significant open recommendations
related to Readiness are as follows:

1.   To ensure that war reserves are adequate to support medical
     material requirements in a dual major war contingency, we
     recommended a comprehensive review of DoD surge capacity
     and measures to ensure the availability of medical items.
     (Report 99-201, 10/26/99)




                                               Enclosure 9
                                                               2

2.   To ensure that communications capacity is adequate to
     support military requirements, we recommended better
     monitoring of leased commercial satellite capacity and
     more intensive planning for various scenarios requiring
     mixes of DoD-owned and commercial satellite support.
     (Report 99-111, 3/26/99)

3.   To improve chemical and biological defense capability in the
     European Command, we recommended various measures to address
     equipment and training deficiencies. (Report 99-102,
     3/4/99)

4.   To improve chemical and biological defense capability in the
     Pacific Command, we recommended various measures to address
     shortfalls in planning and preparedness. (Report 99-045,
     12/31/98)

5.   To improve unit level chemical and biological defense, we
     recommended better readiness assessments and improved
     training. (Report 98-174, 7/17/98)

6.   To improve readiness, we recommended that the Air Force
     reactivate reporting procedures to monitor survivability and
     serviceability of mission-critical equipment in contaminated
     environments. (Report 97-217, 9/19/97)

7.   To ensure adequate wartime support, we recommended that
     the Under Secretary of Defense for Policy establish better
     management controls for international defense support
     agreements. (Report 97-173, 6/23/97)

8.   To optimize the value of military training, we recommended
     revising DoD policies to ensure intensive evaluation of the
     effectiveness of simulation training. (Report 97-138,
     4/30/97)

9.   To improve contingency planning, we recommended improvements
     in planning for fuel requirements for U.S. Forces Korea and
     actions to address shortfalls in personnel, equipment and
     infrastructure. (Report 97-021, 11/6/96)

10. To improve confidence in chemical protective masks, we
    recommended aggressive surveillance testing and emphasis
    on preventative maintenance. After tests confirmed the
    reliability problems identified by auditors in 1994, the
    Services agreed in 1999 to take vigorous measures. (Report
    95-021, 11/2/94)
                                                            3

Closed Recommendations. Our most significant recommendations in
this area that were recently closed are as follows:

1.   To reacquire good inventory control over sensitive chemical
     defense equipment, the Defense Logistics Agency completed a
     wall-to-wall inventory of chemical protective suits.
     (Report D-2000-086, 2/25/00)

2.   To improve readiness, the Navy revised physical fitness test
     standards for Reservists. (Report 99-113, 6/24/99)

3.   To avoid mobilization problems encountered in the past, the
     Reserve Components strengthened their processes for ensuring
     that Family Care Plans for Reservists are fully adequate.
     (Report 98-142, 6/1/98)

4.   To address deficiencies, the U.S. Forces Korea took measures
     to ensure adequate levels of personnel and equipment support
     for ammunition distribution. (Report 98-117, 4/23/98)

5.   To address long-standing readiness problems, the Army,
     Navy and Air Force implemented chemical protective mask
     surveillance testing programs. (Reports 94-154, 6/30/94;
     95-021, 11/2/94; and 99-061, 12/24/98)
                          Human Capital

The Challenge. Like most government organizations, DoD faces a
range of serious personnel management issues. These include:

1.   The deep cuts in both the military force structure and the
     civilian workforce after the end of the Cold War were not
     accompanied by proportionate reductions in numbers military
     force deployments or in civilian workload. On the contrary,
     as discussed in Enclosure 9, military operating tempo has
     been very high and there have been indications of morale
     problems among both military and civilian personnel. Among
     the negative effects of downsizing are increased retention
     problems because of slow promotions and overworked staffs,
     recruiting problems and skills imbalances. Our February
     2000 report on the impact of cutting the DoD acquisition
     workforce in half was received with considerable interest
     by both the DoD and Congress. We were gratified by that
     concern and hope that all decisions on any additional
     workforce sizing will be underpinned by careful analysis
     of workload and realistic productivity projections.

2.   The current DoD civilian workforce is largely composed of
     “baby boomers” and the average age in many organizations is
     nearly 50. The DoD must replace the bulk of its management
     as they retire over the next five years. There are serious
     questions about the availability of enough sufficiently
     trained and talented individuals to fill the likely
     management vacancies occurring across the spectrum of DoD
     organizations.

3.   The pervasiveness of information technology in all facets of
     DoD activities and the rapid evolution of business practices
     necessitate a much more effective and aggressive approach to
     personnel training, especially for DoD civilians. The
     concepts of mandatory training certifications to ensure a
     good group of core competencies and programs of continuing
     professional education have caught hold. It will be a
     continuing challenge, however, to provide meaningful
     training in flexible ways that enable individuals to keep
     up to speed in their professional fields.

4.   The Congress has provided special authority to the DoD
     so that the Department can break out of the strictures
     of antiquated and frustrating Federal personnel rules and
     set up innovative, more agile civilian personnel systems.
     The DoD acquisition community will lead this effort. The
     remainder of the Department will continue to be constrained
     in terms of flexibility in staffing and compensation matters
     until it also receives special authority or general reforms
     are enacted.

                                               Enclosure 10
                                                             2

5.   Although the recent problems in meeting military recruiting
     goals abated in FY 2000 and the Congress approved
     significant compensation increases, the trends in recruiting
     and retaining high quality military and civilian personnel
     bear close watching. Competition from the private sector
     for skilled and high potential individuals likely will
     remain intense.

Most Significant Recent Reports on Human Capital

D-2000-88, DoD Acquisition Workforce Reduction Trends and
Impacts, 2/29/00

D-2000-101, Military Environment With Respect to the Homosexual
Conduct Policy, 3/16/00

D-2001-008, Resources of DoD Adjudication Facilities, 10/30/00

Open Recommendations. Numerous IG, DoD, reports contain
recommendations related to training, but it is difficult to
identify them. In general, the Department has done fairly well
in responding to recommendations that address training. Some
exceptions are listed in Enclosure 5. Other significant open
recommendations on Human Capital are as follows:

1.   To correct deficiencies in staffing joint organizations,
     we recommended that the DoD Directive on joint manpower
     management, which had been in coordination since 1989, be
     issued. (Report 96-029, 11/29/95)

2.   To help develop a more effective and justifiable DoD random
     drug testing program for civilian employees, we recommended
     providing managers with flexibility to determine minimum
     testing rates. (Report 99-64, 12/31/98)

3.   To ensure sufficient staffing of DoD personnel security
     clearance adjudication organizations, we recommended that
     their requirements be reassessed in light of growing
     workload. (Report D-2000-8, 10/30/00)

Closed Recommendations. The most significant of our
recommendations in this area that were recently closed are
as follows:

1.   To protect Service members from fraudulent or unscrupulous
     insurance solicitations, an action plan was implemented.
     (Report 99-106, 3/10/97)

2.   To ensure that military and civilian employees assigned to
     congressional offices are aware of and comply with pertinent
     DoD policies, new guidance was issued. (Report 97-186,
     7/14/97)
                                                            3

3.   To implement requirements of the Defense Officer Personnel
     Management Act, the Army finally issued a regulation
     pertaining to pay and entitlements for medical officers.
     (Report 93-72, 3/22/93)

4.   To improve the timeliness of military disability discharge
     review procedures, the Services made numerous process
     improvements. These changes are estimated to have saved
     $67 million and should provide better assurance of fair
     results. The Army has reduced processing time by over
     50 percent. (Report 92-100, 6/8/92)
                Programs with Questionable Results


1.   The Defense Personnel Security Program has failed to
     ensure timely and high quality personnel security
     investigations. Although progress is being made in
     stabilizing the situation, it probably cannot be completely
     turned around in less than a few years. Acquisition of the
     Case Control Management System by the Defense Security
     Service was poorly managed, contributing to the problem.
     (Reports D-2000-134, 5/30/00 and D-2000-111, 4/5/00)

2.   The DoD is still unable to compile auditable financial
     statements for the Department as a whole and for all but
     one of its component reporting entities. The principal
     problem is the lack of good information systems. Although
     progress toward compliance with new Federal accounting
     standards is being made, the pace is slow and full
     compliance is unlikely for several more years. Beginning
     with implementation of a new management approach during
     FY 2000, DoD is now handling the systems-improvement part of
     this effort as a formal program. The initially established
     milestones have significantly slipped and it is unclear
     whether the cost of attaining favorable audit opinions on
     multiple DoD reporting entities will be affordable. (Report
     D-2000-091, 2/25/00)

3.   The Defense Information Assurance Program is still under
     development and widespread vulnerabilities remain, although
     progress has been made in some areas such as intrusion
     response. Program performance measurement criteria for
     DoD and other Federal information assurance efforts need
     definitization before results can be assessed consistently.
     (Reports D-2000-058, 12/20/99 and D-2000-124, 5/15/00)

4.   Attempts to develop equitable business arrangements with
     sole-source providers of commercial products have had
     generally poor results, although there have been recent
     successes that could be models. (Report D-2000-192, 9/26/00
     and others)

5.   The Department’s initiative to vaccinate all military
     personnel against anthrax proved to be unexecutable, due
     primarily to the inability of the sole-source vaccine
     manufacturer to gain Food and Drug Administration approval
     for its production facility and processes. (Report
     D-2000-105, 3/22/00)




                                                Enclosure 11
                                                           2

6.   Export license review procedures have been cumbersome,
     inefficient and probably ineffective. A process
     reengineering effort is underway and special arrangements
     with certain allies are being negotiated, but the degree
     of improvement in the process remains uncertain. (Reports
     99-186, 6/18/99 and D-2000-110, 3/24/00)
           Broad Scope Documents Used in this Analysis

In addition to the reports listed in the discussion of each
problem area, the following recent reports and testimony contain
useful information applicable to multiple areas.

1.   Deputy Secretary of Defense Management Control Assurance
     Statement for Fiscal Year 1999.

2.   IG, DoD, Semiannual Report to the Congress for the Period
     April 1, 2000, to September 30, 2000. Appendix A of the
     semiannual report lists all DoD internal audit reports by
     issue area. Chapter One discusses DoD high risk areas and
     Chapter Two provides information on different categories
     of oversight activity, including audits and investigations.
     Each semiannual report also discusses at least one focus
     area. For this report, the focus area was Environmental
     Programs. (Release of this report was still pending as
     of November 30, 2000.)

3.   IG, DoD, Semiannual Report to the Congress for the Period
     October 1, 1999, to March 31, 2000. The focus area was
     Information Assurance.

4.   Deputy IG, DoD, Testimony before the House Budget Committee
     on Defense Management Challenges, February 2000.




                                             Enclosure 12
